•>

CERTIFICATE OF SERVICE

No.

David R. Seaton
Petitioner
vs.
Blake Johnson, et al
Respondents

I certify the following. The parties to be
served in this case are Blake Johnson, Corey Vullo
John D’Angelo, the City of Washington DC, Mayor
Muriel Bowser, the Metropolitan Police Department,
and the Solictor General of the United States. With
the exception of the Solictor General of the United
States all of the above mentioned parties are
represented by Megan D. Browder, Esq. Her office
and phone number are 400 6th Street N.W. Suite
8100 Washington DC 20001 and (202) 805-7487
1

RECEIVED
MAY 1 8 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

respectively. The Solicitor General of the United
States, to the best of my knowledge, is
unrepresented, but the address and phone number
are 950 Pennsylvania Ave., N. W., Washington, DC
20530-0001 and (202) 514-2203 respectively.
I certify that, on May

., 2021,1 served Blake

Johnson, Corey Vullo, John D’Angelo, the City of
Washington DC, Mayor Muriel Bowser, and the
Metropolitan Police Department electronically by emailing Ms. Browder their attorney of record
purauant to Order List- 589 U.S.i dated Wednesday,
April 15, 2020 and with the consent of the parties.
Finally, I certify that on the same day three copies
were served to the Solicitor General of the United
States, Room 5616, Department of Justice, 950
Pennsylvania Ave., N. W., Washington, DC 205300001 pursuant to Supreme Court Rule 29.4(a) by

2

U.S. Postal Service first-class postage pre-paid. All
parties required to be served have been served.
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on May M. 2021.

David R. Seaton
Petitioner, Pro Se
200 W. 80th Street Apt 5N
New York, NY 10024
(646) 262-8231
drseatonl23@gmail.com

3

